               July 18, 2001

               SUZANNE F. MEDVIDOVICH
               SENIOR VICE PRESIDENT, HUMAN RESOURCES

               SUBJECT: 	 Review of the Effectiveness of the Employee
                          and Workplace Intervention Analyst Program in
                          the Central Florida District
                          (Report Number LC-MA-01-001)

               This report presents the results of our review of the
               effectiveness of the Employee and Workplace Intervention
               Analyst Program in the Central Florida District (Project
               Number 00JA013LC000). We conducted this review to
               respond to a request from a congressional representative.

Background 	   In 1993, the Postal Service established an employee
               assistance program coordinator position for each Postal
               Service district. The coordinator’s primary responsibility
               was the administration of the Employee Assistance
               Program.

               In 1997, the Postal Service changed the employee
               assistance program coordinator’s title to employee and
               workplace intervention analyst (intervention analyst). This
               change focused the analyst’s responsibilities on improving
               the workplace environment. The duties of the intervention
               analyst included:

                • 	 Training employees in violence awareness.
                • 	 Promoting effective working relationships among
                    managers, supervisors, union officials, and employees.
                • 	 Intervening in tense or hostile work situations.
                • 	 Ensuring development of a crisis readiness plan.

                Between November 1998 and March 1999, the former
                intervention analyst for the Central Florida District wrote a
                number of letters to the postmaster general, the Postal
                Service inspector general, and various senior Postal
Review of the Effectiveness of the Employee	                                         LC-MA-01-001
 and Workplace Intervention Analyst Program
 in the Central Florida District



                               Service managers, alleging the suppression and falsification
                               of data related to troubled work sites in the Central Florida
                               District. The analyst also sent this information to a
                               congressional representative.

 Objectives, Scope,            The overall objective of our review was to assess the
 and Methodology               effectiveness of the Employee and Workplace Intervention
                               Analyst Program. We began our work in the Central Florida
                               District because of the congressional complaint from the
                               district’s former intervention analyst. Our specific objectives
                               were to:

                               • 	 Determine whether the allegations made by the former
                                   intervention analyst concerning suppression and
                                   falsification of data related to troubled work sites in the
                                   Central Florida District had merit.

                                 • 	 Determine whether the current Central Florida District
                                     intervention analyst was performing the requirements of
                                     the position effectively.

                                 • 	 Evaluate the quality of the findings and 

                                     recommendations of the internal assessment of the 

                                     intervention analyst program conducted by Postal 

                                     Service Headquarters. 


                               To accomplish the first objective, we interviewed the former
                               Central Florida District intervention analyst to obtain details
                               of his allegations and supporting documentation. We also
                               requested assault and credible threat reports from the
                               Postal Inspection Service in Orlando and from Central
                               Florida District officials. To accomplish the second
                               objective, we met with the manager, Central Florida District,
                               the current intervention analyst, and senior members of the
                               district management team. To accomplish the third
                               objective, we discussed the internal assessment with
                               headquarters officials and analyzed data used to develop
                               their findings. We obtained documentation related to the
                               effectiveness of the current intervention analyst and files
                               related to allegations made by the former intervention
                               analyst.




                                                    2
                                         Restricted Information
Review of the Effectiveness of the Employee                                        LC-MA-01-001
 and Workplace Intervention Analyst Program
 in the Central Florida District



                               This review was conducted from July 2000 through
                               July 2001 in accordance with the President’s Council on
                               Integrity and Efficiency, Quality Standards for Inspections.
                               We discussed our conclusions and observations with
                               appropriate management officials and included their
                               comments, where appropriate.

 Former Intervention           We found that the allegations made by the former
 Analyst’s Allegations         intervention analyst did not have merit. Specifically, the
 Did Not Have Merit            former analyst made allegations regarding suppression and
                               falsification of data related to troubled work sites. However,
                               the information he provided was predominantly anecdotal,
                               consisting of second-hand information from other Postal
                               Service employees and newspaper articles. Furthermore,
                               his allegations generally concerned complaints by individual
                               employees rather than systemic problems affecting
                               numerous employees or the duties of the intervention
                               analyst. Finally, his allegations were not substantiated by
                               documentation from either Central Florida District files or
                               Postal Inspection Service files.

 Current Intervention          We found that the current intervention analyst in the Central
 Analyst Was Effective         Florida District was performing the requirements of the
                               position effectively. The intervention analyst had employed
                               a number of analytical and human relation techniques,
                               which contributed to an improved work climate in the district
                               in a variety of ways, including:

                               •   Crisis management planning.
                               •   Threat assessment and violence prevention.
                               •   Organizational assessments.
                               •   Partnering with other human resources initiatives.
                               •   Administering Employee Assistance Program services.

                               During our visit to the Central Florida District, the district
                               manager and several of her senior staff told us that the
                               district and the current intervention analyst had developed a
                               relationship based on trust. In addition, we noted that the
                               district had provided the analyst with a full-time employee to
                               assist in evaluating threat assessments, analyzing survey




                                                   3
                                        Restricted Information
Review of the Effectiveness of the Employee                                         LC-MA-01-001
 and Workplace Intervention Analyst Program
 in the Central Florida District



                               responses, organizing files, and compiling a database of
                               climate assessment results.

 Internal Assessment           In July 2000, we learned that the Office of Workplace
 Was Sufficient                Environment Improvement at Postal Service Headquarters
                               was conducting an internal assessment of the intervention
                               analyst program. We found the headquarters’ assessment
                               of the effectiveness of the intervention analyst position
                               included extensive information obtained through
                               questionnaires, interviews with managers and intervention
                               analysts, focus groups, and a nationwide meeting of
                               intervention analysts. The findings and recommendations of
                               the assessment focused on reorganizing job priorities,
                               improving communication channels, and changing the
                               position description and qualification standards for the
                               position.

                               Headquarters officials are working with district-level
                               managers to implement these recommendations throughout
                               the nation. For example, headquarters and field managers
                               advised that they are developing strategies to encourage
                               more consistent use of intervention analysts and improve
                               accountability at the district and area levels.

 Conclusion                    We offer no recommendations to Postal Service
                               management at this time. Additionally, we do not plan to
                               perform additional work on this subject because we believe
                               the internal headquarters’ assessment of this program
                               sufficiently identified issues requiring management attention
                               and included recommended actions to alleviate those
                               problems.

                               We appreciate the cooperation and courtesies provided by
                               your staff and the staff of the Central Florida District Office
                               during the review. If you have any questions, please
                               contact JoAnn Crosby, acting director, Labor Management,
                               or me at (703) 248-2300.



                               Ronald K. Stith
                               Assistant Inspector General
                                for Oversight and Business Evaluations



                                                   4
                                        Restricted Information
Review of the Effectiveness of the Employee                      LC-MA-01-001
 and Workplace Intervention Analyst Program
 in the Central Florida District



                               cc: 	 William A. Campbell
                                     Nancy F. James
                                     William J. Brown
                                     Viki M. Brennan
                                     John R. Gunnels




                                                   5
                                        Restricted Information
